                                                      U.S. Department of Justice

                                                      Michael J. Sullivan
                                                      United States Attorney
                                                      District of Massachusetts

                                                      John Joseph Moakley United States Courthouse
Press Office: (617) 748-3139
                                                      1 Courthouse Way
                                                      Suite 9200
                                                      Boston, Massachusetts 02210
                                                      January 10, 2005

                                        PRESS RELEASE

                         FORMER AGGREGATE INDUSTRIES EXECUTIVES
                          PLEAD GUILTY TO OBSTRUCTION OF JUSTICE

       Boston, MA... Two former high-level executives at Aggregate Industries, formerly known
as Bardon Trimount, a contracting company located in Saugus, Massachusetts, pleaded guilty
today in federal court to witness tampering in connection with a federal grand jury investigation.

        United States Attorney Michael J. Sullivan; Kenneth W. Kaiser, Special Agent in Charge
of the Federal Bureau of Investigation in New England; and Theodore L. Doherty, Special Agent
in Charge of the U.S. Department of Transportation, Office of the Inspector General, Office of
Investigations, announced that WILLIAM COWHIG, age 67, of 14 Silverbridge Road,
Topsfield, Massachusetts, and LUIGI IULIANO, age 48, of 9 Seneca Road, Winchester,
Massachusetts, pleaded guilty before U.S. District Judge Rya Zobel. Specifically, COWHIG
pleaded guilty to one felony count of witness tampering and IULIANO pleaded guilty to one
misdemeanor count of witness tampering.

        Aggregate Industries, Inc., a contracting company headquartered in Saugus,
Massachusetts, is one of the largest suppliers of road construction products including aggregate
(crushed stone), ready-mix concrete and bituminous concrete (asphalt), in Massachusetts for use
in public and private construction projects. The company formerly operated under the name of
Bardon Trimount Corporation until late 2000 or early 2001 when it changed its name to
Aggregate Industries, Inc. During the time of the offenses, COWHIG was an Executive Vice
President at Bardon Trimount and IULIANO was the General Manager of Sales for Bardon
Trimount’s aggregate, bituminous and ready mix products, as well as their soil remediation and
recycling projects.

        At today’s plea hearing, the prosecutor told the Court that, had the case proceeded to trial,
the evidence would have proven that the owner and President of a family-owned company that
produced and supplied aggregate products to customers in eastern Massachusetts, was
cooperating with the federal government in an ongoing investigation concerning a bid rigging
scheme involving Bardon Trimount, COWHIG and IULIANO. The Cooperating Witness
(“CW”) had been a competitor of Bardon Trimount for many years, bidding on numerous
aggregate contracts that Bardon Trimount also bid on. Also at certain time the CW was a supplier
to Bardon Trimount.

        In early April, 2002, the CW received a subpoena to testify before a federal Grand Jury.
Following receipt of the subpoena, the CW met individually with COWHIG and IULIANO to
let them know. Under the supervision of investigating agents, the CW tape recorded his
conversations with COWHIG and IULIANO.

        On April 11 and 12, 2002, IULIANO intentionally harassed the CW in an attempt to
dissuade the CW from testifying before a federal Grand Jury. Among other things, IULIANO
told the CW on April 11, 2002 while discussing the CW’s impending Grand Jury testimony,
“Well my first reaction would be to hire nobody and play dumb and say what are you looking
for? And I would just bring your, your ah, your bids. You know, what you bid, what you actually
bid. Don’t bring them any of the paperwork.” And in a second conversation on April 12, 2002,
IULIANO told the CW, “But, if you are evasive and as vague or just, you know, don’t, don’t
offer any more than what they ask. And even what they ask, tell them half...”

        The CW also had conversations with COWHIG about the Grand Jury subpoena. On
April 17, 2002, COWHIG told the CW that, “... if they, under oath, ask you what, have you
talked to anybody about this?... You’re gonna have to, you’ll deny it right out of the box.” In a
second conversation on April 19, 2002, COWHIG told the CW, “There’s nothing in my books, I
don’t keep records on bids. So there’s nothing they can find on me if they decide to subpoena
me. And I would die before I mentioned anything. They’d have to pull my f**n’ nails out.”

      Judge Zobel scheduled sentencing for April 6, 2005 at 2:00 p.m. Based on plea
agreements filed with the Court, COWHIG and IULIANO each face a sentencing range of 6 to
12 months in home detention.

       The case was investigated by Special Agents of the Federal Bureau of Investigation and
the Department of Transportation, Office of the Inspector General, Office of Investigations. It is
being prosecuted by Assistant U.S. Attorneys Allison Burroughs and Jonathan Mitchell in
Sullivan’s Economic Crimes Unit.

Press Contact: Samantha Martin, (617) 748-3139
